U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: David Blaszczak v. United States, No. 20-5649
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 4,
2020. The government’s response is now due, after one extension, on November 12, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 24, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5649
BLASZCZAK, DAVID
USA

COLLEEN P. CASSIDY
FEDERAL DEFENDERS OF NEW YORK, INC.
APPEALS BUREAU
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8742
COLLEEN_CASSIDY@FD.ORG
CARY A. GLYNN
WILMER CUTLER PICKERING
7 WORLD TRADE CENTER
250 GREENWICH STREET
NEW YORK, NY 10007
212-230-8800
PETER.NEIMAN@WILMERHALE.COM
DANIEL M. SULLIVAN
HOLWELL SHUSTER & GOLDBERG LLP
425 LEXINGTON AVENUE
NEW YORK , NY 10017
646-837-5151
DSULLIVAN@HSGLLP.COM

